                                                                             Report No. DODIG-2014-117



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              september 17, 2014




                     Quality Control Review of Army
                     Audit Agency’s Special Access
                     Program Audits




I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e
    I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                4800 MARK CENTER DRIVE
                             ALEXANDRIA, VIRGINIA 22350-1500



                                                                           September 17, 2014

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Quality Control Review of Army Audit Agency’s Special Access Program Audits
         (Report No. DODIG-2014-117)

We are providing this report for your information and use.  We reviewed the Army
Audit Agency’s (AAA) system of quality control over Special Access Programs (SAP)
audit reports issued for two fiscal years ended September 30, 2013.           The generally
accepted government auditing standards (GAGAS) require that an audit organization
performing audits and/or attestation in accordance with GAGAS should have an
appropriate internal quality control system in place and undergo an external peer review
at least once every 3 years by reviewers independent of the audit organization being
reviewed. As the organization that has audit policy and oversight responsibilities for audits
in the DoD, we conducted the external quality control review of the AAA SAP audits in
conjunction with the Naval Audit Service’s review of the AAA non-SAP audits.

An audit organization’s quality control policies and procedures should be appropriately
comprehensive and suitably designed to provide reasonable assurance of meeting the
objectives of quality control. We tested the AAA SAP system of quality control for audits to
the extent considered appropriate.

Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail. In
our opinion, the system of quality control for the audit function of AAA SAP in effect for the
period ended September 30, 2013, was designed in accordance with quality standards
established by GAGAS. Accordingly, we are issuing a pass opinion on your SAP audit
quality control system for the review period ended September 30, 2013.

Appendix A contains comments, observations, and recommendation where AAA can improve
its quality control system. Appendix B contains the scope and methodology of the review.

We appreciate the courtesies extended to the staff. For additional information on this
report, please contact Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877) or
Carolyn.Davis@dodig.mil.




	                                               Randolph R. Stone
	                                               Deputy Inspector General
	                                               Policy and Oversight



                                                                                  Report No. DODIG-2014-117│ i
            Contents
            Appendixes
            Appendix A. Comments, Observations, and Recommendation_ _____________________________1
            Appendix B. Scope and Methodology _ ________________________________________________________4

            Management Comments_______________________________________________________6
            Acronyms and Abbreviations _______________________________________________8




ii │ Report No. DODIG-2014-117
                                                                                                          Appendixes




Appendix A
Comments, Observations, and Recommendation
We are issuing a pass opinion because we determined that the Army Audit
Agency’s (AAA) quality control system is adequately designed and functioning as
prescribed.     The concerns we identified during our review of the selected AAA
audit reports were not cumulatively significant enough to indicate that material
deficiencies existed in the AAA quality control system for complying with generally
accepted government auditing standards (GAGAS).               We assessed two of the three
audit reports in our sample for compliance with the 2007 revision of GAGAS
because those audits began before the GAGAS 2011 requirements were implemented.
However, we identified issues that are still applicable even when we apply the
2011 revision of GAGAS.

We      identified   areas    of   concern    relating   to    quality   control   and          audit
documentation.       We judgmentally tested the reports for compliance with GAGAS
and AAA audit policies in nine areas: quality control, audit documentation,
independence, professional judgment, competence, audit planning, supervision,
evidence, and reporting.


Quality Control
GAGAS 3.91 (2011 revision) and GAGAS 3.53e (2007 revision) states that
audit     organizations      should   establish    policies   and    procedures        for      audit
performance, documentation, and reporting that are designed to provide the
audit organization with reasonable assurance that audits are performed and
reports are issued in accordance with professional standards and legal and
regulatory requirements.

US Army Audit Agency Regulation No. 36-3, “Audit Survey and Execution,” dated
August 1, 2011, Chapter 10, Section 10-1d, “Cross-Referencing Working Papers,” states:

              any information (facts, figures, or other data) contained in a working
              paper and used in a report must have a specific cross-reference to
              the report. Auditors should cross-reference to supporting working
              papers whenever possible and only cross-reference a draft report
              to summary working papers when the conclusions in the report are
              a consolidation of many working papers.  As a minimum, auditors
              should cross-reference the following:




                                                                                             Report No. DODIG-2014-117│ 1
Appendixes



                                 (1)	 Audit Program.  Auditors should cross-reference the audit
                                      program to the supporting and summary working papers.

                                 (2)	 Working Papers.  Auditors should cross-reference working
                                      papers to the audit program, related working papers, evidentiary
                                      or source documentation, summary working papers, and the
                                      draft report.


                  We found that for two1 of the three audits reviewed, the auditors did not
                  follow the AAA audit policy relating to quality control.  The auditors either did
                  not cross‑reference audit steps in the audit plan to supporting documentation
                  or document that the audit steps did not apply after the auditors obtained
                  additional documentation.


                  Audit Documentation
                  GAGAS 6.79 (2011 revision) and GAGAS 7.77 (2007 revision) states that
                  auditors must prepare audit documentation related to planning, conducting,
                  and reporting for each audit.  Auditors should prepare audit documentation
                  in sufficient detail to enable an experienced auditor, having no previous
                  connection to the audit to understand from the audit documentation the nature,
                  timing, extent, and results of audit procedures performed, the audit evidence
                  obtained, and its source and the conclusions reached including evidence that
                  supports the auditors’ significant judgments and conclusions.

                  US Army Audit Regulation No. 36-3, “Audit Survey and Execution,” dated
                  August 1, 2011, Chapter 11-1, “Audit File Organization,” states:

                                 auditors should place working papers and other audit files
                                 into logically organized folders.  The working paper folders
                                 serve as the “master index” of all working papers, files, and
                                 products related to the audit. Auditors should index and save all
                                 documents and other files supporting the working papers to
                                 properly named subfolders.


                  We found that for two2 of the three audits reviewed, the auditors did not
                  properly follow AAA audit policies and organize folders.  For one audit, the auditors
                  did not include a master index to address which folder the working papers were


                  	1	
                      One audit was conducted under the 2007 GAGAS requirements while the other audit was conducted under the 2011
                      GAGAS requirements.
                  	2	
                      One audit was conducted under the 2007 GAGAS requirements while the other audit was conducted under the 2011
                      GAGAS requirements.




2 │ Report No. DODIG-2014-117.
                                                                                           Appendixes



located or how many binders completed the audit. For another audit, information
was contained in unclassified automated working papers, but the classified
working papers were not properly indexed to indicate that unclassified working
papers existed.

During our review, the AAA Audit Quality and Assurance Branch issued a
quality assurance report on April 24, 2014, on the SAP audits that identified
the issue of indexing and audit documentation.  The Acting Program Director for
AAA Security and Intelligence Audits issued a memorandum on April 30, 2014,
to address the issues identified in the quality assurance report.  Specifically,
the memorandum addressed that manual working papers should contain a
master index, and that audits using both manual working papers and automated
working papers contain a master index and the number of binders used to
store the working papers.  The master index must indicate the location of
the manual files and the name of the automated system where the audit
files are stored.

The Acting Program Director’s action addresses the issues that we identified
during our review of this area.


Recommendation
We   recommend         that   the   Acting   Program   Director   AAA   Security   and
Intelligence Audits:

Remind auditors to follow AAA guidance for cross-referencing working papers
to include the referencing of the audit plan to working papers to support
audit steps.


Management Comments
The AAA Auditor General concurred. The Acting Program Director for Intelligence
and Security Audits sent an e-mail on August 26, 2014, to all SAP personnel
discussing the results of the peer review and re-emphasizing the need for auditors
to fully cross‑reference working papers. AAA also plans to discuss the requirement
in detail to fully cross-reference working papers to supporting audit steps during
the Intelligence and Security Audit Team’s meeting scheduled in November 2014.


Our Response
AAA comments were responsive. No additional comments are needed.




                                                                              Report No. DODIG-2014-117│ 3
Appendixes




                  Appendix B
                  Scope and Methodology
                  We limited our review to the adequacy of AAA SAP audits’ compliance with
                  quality policies, procedures, and standards.  We judgmentally selected 3  SAP
                  audit from a universe of 11 SAP audit reports issued by AAA SAP auditors during
                  FY  2012 and FY  2013. We tested each audit for compliance with the AAA system
                  of quality control. The Naval Audit Service conducted a review of the AAA internal
                  quality control system for non-SAP audits and/or attestation engagements and will
                  issue a separate report.  The Deputy Inspector General for Policy and Oversight
                  will issue an overall opinion report on the AAA internal quality control system
                  that will include the combined results of the SAP and non-SAP audit reviews. In
                  performing our review, we considered the requirements of quality control standards
                  contained in both the 2011 and 2007 revisions of GAGAS issued by the Comptroller
                  General of the United  States.  Both GAGAS  3.96 (2011 revision) and GAGAS  3.56
                  (2007 revision) contain a requirement for anexternal peer review at least once
                  every 3 years. GAGAS 3.96 (2011 revision) states:

                                 The audit organization should obtain an external peer
                                 review at least once every 3 years that is sufficient in scope
                                 to provide a reasonable basis for determining whether, for
                                 the period under review, the reviewed audit organization’s
                                 system of quality control was suitably designed and
                                 whether the audit organization is complying with its quality
                                 control system in order to provide the audit organization
                                 with reasonable assurance of conforming with applicable
                                 professional standards.

                  We conducted this review in accordance with standards and guidelines established
                  in both the March 2009 and the November 2012 update to the Council of the
                  Inspectors Generals on Integrity and Efficiency “Guide for Conducting External
                  Peer Reviews of Audit Organizations of the Federal Offices of Inspector General,”
                  and the Quality Standards for Inspection and Evaluation. The Naval Audit Services
                  used this guide in reviewing non-SAP audits at the AAA.             We reviewed audit
                  documentation, interviewed AAA auditors, and reviewed AAA audit policies.  We
                  reviewed the DoD OIG Report No.  DODIG-2012-045, “Quality Control Review of




4 │ Report No. DODIG-2014-117.
                                                                                         Appendixes



Army Audit Agency’s Special Access Program Audits,” dated January 27, 2012.  
We performed this review from April to June 2014 at one AAA office.

To select the audits under review, we:

        •	 began with the FY 2013 audits reports in order to review the most
          current quality assurance procedures in place,

        •	 eliminated audit reports produced from the same project, and

        •	 eliminated audits that have the same or similar titles to ensure review
          of multiple types of projects.

Our review would not necessarily disclose all weaknesses in the system of quality
control of all instances of noncompliance because we based our review on selective
tests.  There are inherent limitations in considering the potential effectiveness of
any quality control system. In performing most control procedures, departures can
result from misunderstanding of instructions, mistakes of judgment, carelessness,
or other human factors.  Projecting any evaluation of a quality control system
into the future is subject to the risk that one or more procedures may become
inadequate because conditions may change or the degree of compliance with
procedures may deteriorate.




                                                                            Report No. DODIG-2014-117│ 5
Management Comments




                  Management Comments

                                                          DEPARTMENT OF THE ARMY
                                                                U.S. ARMY AUDIT AGENCY
                                                        OFFICE OF THE DEPUTY AUDITOR GENERAL
                                                   FINANCIAL MANAGEMENT AND COMPTROLLER AUDITS
                                                             6000 6TH STREET, BUILDING 1464
                                                              FORT BELVOIR, VA 22060-5609




                           SAAG-FMZ                                                               2 September 2014


                           MEMORANDUM FOR Deputy Inspector General for Policy and Oversight, Office of the
                           Inspector General, Department of Defense, 4800 Mark Center Drive, Alexandria, VA
                           22350-1500

                           SUBJECT: Quality Control Review of U.S. Army Audit Agency’s Special Access
                           Program Audits (Project Number: D2014-DAPOIA-0059.000)


                           1. We are providing our written response (enclosure) to the quality review report dated
                           22 August 2014. We concur with the recommendation in the report.

                           2. We thank you and your staff for their professionalism in performing the peer review
                           and for bringing to our attention areas in which we can improve our operations. We
                           agree with your conclusion that our system of quality control was operating effectively to
                           provide reasonable assurance that special access program personnel were following
                           established policies, procedures, and applicable auditing standards.

                           3. If you have any questions or need additional information, please contact me or
                           Ms. Theresa Corbett at (703) 428-7213 or e-mail theresa.r.corbett.civ@mail.mil.

                           FOR THE AUDITOR GENERAL:




                           Encl                                     KEVIN F. KELLY
                                                                    Deputy Auditor General
                                                                    Financial Management
                                                                      and Comptroller Audits




6 │ Report No. DODIG-2014-117
                                                                                    Management Comments




Management Comments (cont’d)


             Comments on Recommendation in Quality Control Review
            of U.S. Army Audit Agency’s Special Access Program Audits
                     (Project Number: D2014-DAPOIA-00059.000)


 Overall. We fully agree with your overall conclusion that U.S. Army Audit Agency’s
 (USAAA’s) system of quality control for special access programs was operating
 effectively to provide reasonable assurance that personnel were following established
 policies, procedures, and applicable auditing standards. We also appreciate the
 recommendation for corrective action you provided. The following comments describe
 the actions we took for the recommendation in the report.

 Recommendation. The Acting Program Director for Intelligence and Security Audits
 should remind auditors to follow USAAA guidance for cross-referencing working papers
 to include the referencing of the audit plan to working papers to support audit steps.

     USAAA Comments. Concur. On 26 August 2014, the Acting Program Director
     sent an e-mail to all special access program personnel discussing the results of the
     peer review and re-emphasizing the need for auditors to fully cross-reference
     working papers. In addition, the requirement to fully cross-reference working papers
     to supporting audit steps will be discussed in detail during the planned Intelligence
     and Security Audit Team’s upcoming team meeting in November 2014.




                                            2




                                                                                    Report No. DODIG-2014-117 │ 7
Acronyms and Abbreviations




                  Acronyms and Abbreviations
                        AAA     Army Audit Agency
                     GAGAS      Generally Accepted Government Auditing Standards
                         SAP    Special Access Programs




8 │ Report No. DODIG-2014-117
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
